Memorandum from the Office of the Inspector General



September 9, 2010

Kimberly S. Greene, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2009-12594 – DISTRIBUTOR REVIEW OF
LENOIR CITY UTILITIES BOARD



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, or wish to discuss our findings, please contact Melissa M.
Neusel, Project Manager, at (865) 633-7357 or Jill M. Matthews, Deputy Assistant
Inspector General, Audits and Support, at (865) 633-7430. We appreciate the courtesy
and cooperation received from your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

MMN:HAC
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Robert A. Morris, WT 7C-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      Stephen B. Summers, WT 4B-K
      John M. Thomas III, MR 3A-C
      John G. Trawick, WT 3D-K
      Robert B. Wells, WT 9B-K
      OIG File No. 2009-12594
        
 


                                 Audit Report
 
Office
      of the Inspector General                             

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                           

 

 

 

 

 

 
DISTRIBUTOR REVIEW
 

OF LENOIR CITY
UTILITIES BOARD
 



 




 

 
 
 

 Audit Team                                Audit 2009-12594
Melissa M. Neusel                         September 9, 2010
Jessica L. Monroe
Stephanie L. Simmons
Jennifer R. Torregiano
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO
   MEMBERS OF THE SAME RATE CLASS ....................................................... 2

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 4

   CONTRACT COMPLIANCE ISSUES ............................................................... 6

   DISTRIBUTOR INTERNAL CONTROL ISSUES .............................................. 7

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 8

RECOMMENDATIONS .................................................................................. 9


APPENDICES

A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED SEPTEMBER 3, 2010, FROM SHANNON LITTLETON TO
   ROBERT E. MARTIN

C. MEMORANDUM DATED SEPTEMBER 3, 2010, FROM KIMBERLY S.
   GREENE TO ROBERT E. MARTIN




Audit 2009-12594
                  Audit 2009-12594 – Lenoir City Utilities Board
                                  EXECUTIVE SUMMARY

Why the OIG Did This Review

  As part of the annual audit plan, the OIG (Office of the Inspector General) performed a
  review of the Lenoir City Utilities Board (LCUB), which is a distributor for Tennessee
  Valley Authority (TVA) power based in Lenoir City, Tennessee. Annual revenues from
  electric sales were approximately $151 million in fiscal year 2009. LCUB also operates
  nonelectric businesses that include gas, water, and sewer utilities. The objective of the
  review was to determine compliance with key provisions of the power contract between
  TVA and LCUB.

What the OIG Found

  Our review of LCUB found improvements were needed in the areas of:

     Customer Classification and Metering – We identified 102 customer accounts not
      classified correctly and two metering issues that could impact (1) the proper reporting
      of electric sales and/or (2) nondiscrimination in providing power to members of the
      same rate class. We were unable to estimate the monetary effect of all the
      classification and metering issues because in some instances information was not
      available; however, for those instances where information was available, the
      monetary effect on LCUB and TVA would not be material.
     Contract Compliance – We identified two areas where LCUB was not meeting
      power contract requirements with TVA. Specifically, we found (1) customers without
      a contract and (2) certain joint costs were not allocated between service
      departments.
     Distributor Internal Controls – We identified two areas where LCUB could
      strengthen internal controls. Specifically, we found improvements could be made
      with respect to (1) accuracy of contract demand entered in the billing system and
      (2) developing policies to improve controls over charitable contributions.

  In addition, we found LCUB had enough cash on hand to cover planned capital projects
  and provide a cash reserve of about 8 percent, which is within TVA’s established
  guidelines for adequate cash reserves of 5 to 8 percent.

  Finally, we identified a new opportunity to enhance TVA’s oversight of the distributors.
  We found TVA has not developed guidance regarding verification of Standard Industrial
  Classification (SIC) codes to ensure a company qualifies to receive certain credits but
  rather relies on the customer’s certification. We also identified two opportunities that
  have been reported in previous distributor audits. TVA is in the process of addressing
  these two findings, which include the (1) absence of a joint cost study being performed in
  over 20 years and (2) lack of an adequately defined process to document approval of
  credits.


                                                                                       Page i
                  Audit 2009-12594 – Lenoir City Utilities Board
                                 EXECUTIVE SUMMARY

What the OIG Recommends

  We recommend the Group President, Strategy and External Relations (S&ER), work
  with LCUB to (1) remediate classification and metering issues, (2) comply with contract
  provisions related to customer contracts and allocation of joint costs, and (3) strengthen
  internal controls. In addition, the Group President, S&ER, should develop and provide
  guidance outlining the amount of verification required to ensure a customer meets the
  established SIC code criteria and thereby qualifies to receive certain credits.

Management’s Comments

  LCUB and TVA management agreed with and have or are taking actions to address the
  recommendations. See Appendix B for LCUB’s complete response and Appendix C for
  TVA’s complete response.

Auditor’s Response

  The OIG concurs with actions taken and planned by LCUB and TVA to correct the
  identified issues.




                                                                                       Page ii
Office of the Inspector General                                                                      Audit Report


BACKGROUND
The Lenoir City Utilities Board (LCUB)1 is a distributor for Tennessee Valley
Authority (TVA) power based in Lenoir City, Tennessee, with revenues from
electric sales of approximately $151 million in fiscal year (FY) 2009. TVA relies
on distributors to self-report customer usage and subsequently the amount owed
to TVA (Schedule 1). Customers are generally classified as residential,
commercial, manufacturing, and lighting. Within these classes are various rate
classifications based on the customer type and usage. Table 1 shows the
customer mix for LCUB as of June 2009.

                             LCUB’s Customer Mix as of June 2009
                                                  Number of                                      Kilowatt
        Customer Classification                                            Revenue
                                                  Customers                                     Hours Sold
    Residential 47,125                                                       $77,836,267          825,316,128
    General Power – 50 Kilowatt (kW)
                                                             9,502            16,921,875 155,18           7,900
    and Under (Commercial)
    General Power – Over 50 kW
                                                               944            55,172,835 610,13           3,385
    (Commercial or Manufacturing)
    Street and Athletic                                         40                371,457            4,061,520
                      2
    Outdoor Lighting 372                                                        1,029,991            9,435,565
    Unbilled Revenue                                                            (809,735)
     Total                                                 57,983           $150,522,690       1,604,134,498
                                                                                                         Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. LCUB, like many other distributors, outsources its billing and
invoice processing to a third-party processor, Central Service Association (CSA).
LCUB uses CSA systems to establish and set up new customers, input customer
meter information, perform the monthly billing process, and execute customer
account maintenance. Additionally, CSA provides LCUB with management
reporting capabilities (e.g., exception reports). All other accounting and finance
responsibilities are handled by LCUB, which has a Board of Directors providing
oversight and a manager and accountant managing the daily activities. LCUB
also operates nonelectric businesses that include gas, water, and sewer utilities.




1
     The wholesale power contract is between the “City of Lenoir City, Tennessee,” and TVA. The “Lenoir
     City Utilities Board,” a department of the City of Lenoir City, manages and operates the electric, gas,
     water, and sewer utilities departments for the City. We will use “Lenoir City Utilities Board” rather than
     the “City of Lenoir City” in this report.
2
     This customer count represents those customers who only have Outdoor Lighting services with LCUB.
     Another 5,183 customers had Outdoor Lighting services as well as other services with LCUB at
     June 30, 2009. The “Revenue” and “Kilowatt Hours Sold” include both Outdoor Lighting categories.
Audit 2009-12594                                                                                          Page 1
Office of the Inspector General                                                               Audit Report


FINDINGS
Our review of LCUB found issues involving customer classification and
metering that could impact (1) the proper reporting of electric sales and/or
(2) nondiscrimination in providing power to members of the same rate class. In
addition, we found LCUB had enough cash on hand to cover planned capital
projects and provide a cash reserve of about 8 percent, which is within TVA’s
established guidelines for adequate cash reserves of 5 to 8 percent.

We also found improvements were needed to (1) comply with contract provisions
regarding the establishment of written contracts with customers and allocation of
certain joint costs between service departments and (2) strengthen the
distributor’s internal controls. Finally, we have identified certain opportunities to
enhance TVA’s oversight of the distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO MEMBERS
OF THE SAME RATE CLASS
As discussed on the following page, we identified customer classification and
metering issues that could impact the proper reporting of electric sales. In
addition, these issues could impact the ability to ensure nondiscrimination in
providing power to members of the same rate class.3 We were unable to
estimate the monetary effect of these metering issues because customer
demand information was not available. However, for the two customer
classification items, the monetary effect on LCUB and TVA was not material.
Correcting classification and metering issues is important to ensure all customers
are placed in the correct rate classification and charged the same rate as other
customers with similar circumstances.

Customer Classification Issues
We found 102 customer accounts that were not classified properly. Of the
102 accounts, 7 were commercial customer accounts classified within the
General Power Rate – Schedule GSA. The GSA schedule is divided into three




3
    Section 5 Resale Rates subsection (a) of the power contract between TVA and LCUB states that “power
    purchased hereunder shall be sold and distributed to the ultimate consumer without discrimination
    among consumers of the same class and that no discriminatory rate, rebate, or other special concession
    will be made or given to any consumer, directly or indirectly.”
Audit 2009-12594                                                                                   Page 2
Office of the Inspector General                                                                      Audit Report


parts—Part 1, Part 2, and Part 3—based on electric usage and demand,4 and
these customer accounts were incorrectly assigned within the GSA schedule.
The remaining 95 customer accounts were classified as residential, although
they should have been classified under the GSA schedule. The monetary impact
of the classification issues below would not be material to LCUB or TVA.
Specifically, we found:

    Seven customer accounts were classified as GSA Part 15 instead of GSA
     Part 2. According to the GSA schedule, a customer should be classified as
     GSA Part 2 if (1) usage is over 15,000 kilowatt hours (kWh), (2) metered
     demand exceeds 50 kW, or (3) contract demand is greater than 50 kW.
     When a customer is moved to GSA Part 2, they must remain at that
     classification for 12 months after meeting the Part 2 criteria. These
     customers had metered demand over 50.01 kW at least one month during the
     audit period; therefore, the customer should have been classified as a GSA
     Part 2 for the next 12 months.
     Based on information provided by billing agency personnel, the CSA system
     used by LCUB did not automatically change a customer from GSA Part 1 to
     GSA Part 2 based on metered demand until after demand exceeds 50.499 kW
     rather than the 50 kW as stated under Part 2 of the GSA schedule. Two of
     these customer accounts were later automatically upgraded to GSA Part 2 by
     the billing system when the demand exceeded 50.499 kW or usage exceeded
     15,000 kWh. The other five customer accounts did not have demand that
     exceeded 50.499 kW for the remainder of the audit period; therefore, the
     customer account was not automatically upgraded to GSA Part 2 by the billing
     system. In response to previous audits, CSA modified the billing system to
     correct this issue.


4
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
5
    Under the General Power Rate – Schedule GSA adopted by LCUB, customers are classified based on
    the following requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer’s
        monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2009-12594                                                                                           Page 3
Office of the Inspector General                                                                  Audit Report


    Ninety-five customer accounts were classified as residential customers
     instead of GSA schedule customers. These accounts consisted of service to
     commercial businesses, churches, or other separately metered structures,
     such as barns, sheds, garages, pumps, pool houses, boat docks, gates, etc.,
     which do not qualify as a single family dwelling. LCUB personnel stated work
     orders were initiated to have the accounts reclassified from residential to
     commercial (GSA schedule) during our audit.

Metering Issues
In addition to the customer classification issues, our review of billing agency data
noted the following two issues related to metering of customer accounts at
LCUB. We were unable to estimate the monetary effect because in some
instances meters were not in place that would provide information to make the
estimates. Specifically, we found:

    Four customer accounts classified as GSA Part 2 had energy usage in
     excess of 25,000 kWh but were not measured for demand.6 Under Part 2 of
     the GSA schedule and the Wholesale Power Rate – Schedule WS with TVA,
     there would be no effect on the revenues for TVA or the distributor unless the
     customer demand exceeded 50 kW. Without demand meters in place or
     evidence indicating other circumstances exist that would prevent a customer
     from exceeding demand of 50 kW, we could not determine if these customer
     accounts would have exceeded 50 kW. Three additional accounts had usage
     in excess of 25,000 kWh during the audit period; however, LCUB has
     installed a demand meter at the location for two of these accounts, and
     service to the remaining account has been disconnected.
    Two customer accounts had zero usage readings for a time during the audit
     period. These customer accounts were identified as having a metering issue
     or a bad meter, which caused these readings. LCUB personnel stated they
     have replaced these meters and are working to back bill these customers.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses, (2) debt service,
(3) tax equivalent payments, and (4) reasonable reserves for renewals,
replacements, and contingencies. As discussed on the following page, we noted
LCUB had enough cash on hand to cover planned capital projects and provide a
cash reserve of about 8 percent, which is within TVA’s established guidelines for
adequate cash reserves of 5 to 8 percent.7


6
    On February 12, 2010, in response to a finding in a previous report, TVA issued guidance to distributors
    in Tennessee on how to evaluate whether a demand meter is needed when a customer’s usage reaches
    25,000 kWh.
7
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash Equivalents________________________
                           Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2009-12594                                                                                      Page 4
Office of the Inspector General                                                  Audit Report


As of June 30, 2009, LCUB reported about $19.3 million in its cash and cash
equivalent accounts. Table 2 shows information about major capital
expenditures obtained from LCUB management.

                   LCUB’s Planned Capital Expenditures for FY 2010

                       Capital Expenditure Plans                          Project Cost
 Upgrades and System Improvements                                                 $625,000
 Road Construction                                                                $500,000
 Distribution Plant                                                             $3,000,000
 Substation and Transmission                                                    $4,160,000
 Contracted Labor                                                                  $75,000
 Transportation Equipment                                                         $265,000
 Information Technology                                                           $154,700
    Total Planned Capital Expenditures                                          $8,779,700
                                                                                    Table 2

When compared to LCUB’s capital expenditure plans for FY 2010 , the balance
in LCUB’s cash accounts was enough to pay for these items and leave about
$10.5 million as a reserve, as shown in Table 3. Table 3 also shows LCUB’s
cash ratio percentage was about 14 percent before accounting for planned
capital expenditures and about 8 percent after accounting for them.

      LCUB’s Cash Accounts Compared to Planned Capital Expenditures
                                  Cash and Cash    Planned Capital   Reserve After Planned
                                   Equivalents      Expenditures      Capital Expenditures
 FY 2009                              $19,271,001 $8,779,7     00              $10,491,301
 Cash Ratio Percentage                    14.07% 7.68%
                                                                                    Table 3

According to TVA records, over the past five years LCUB was approved for rate
increases in 2005 and 2006. Table 4 shows the rate increases received by
LCUB and the cash position and cash ratio at June 30 prior to the effective date
of the rate increase.




Audit 2009-12594                                                                     Page 5
Office of the Inspector General                                                                  Audit Report


                LCUB’s Rate Increases, Cash Position, and Cash Ratio

       Cash on Hand                 Cash and Cash                           Rate Increase9
     Equivalent to an 8%             Equivalents8
         Cash Ratio                 and Cash Ratio            Additional
                                                                               Percent      Effective Date
                                                              Revenue
                                      $14,276,947
          $6,884,499                                          $1,648,137 1.78%                10/1/2005
                                       (CR = 16.6%)
                                      $13,647,685
          $7,991,429                                          $4,254,528 4.58%                10/1/2006
                                       (CR = 13.7%)
                                                                                                     Table 4

Discussions with LCUB management indicated their operating philosophy has
become a more conservative, generally debt-averse approach than in the past.

CONTRACT COMPLIANCE ISSUES

We noted two areas where LCUB was not meeting the requirements of the power
contract with TVA. Specifically, in the area of customer contracts we found
(1) customers without a written contract and (2) certain joint costs were not
allocated among service departments. Below is further discussion on these
items.

Customer Contracts When Demand Exceeds Threshold
We found LCUB did not have customer contracts for all customers with demand
above 1 megawatt (MW). Specifically, we found the GSA schedule from TVA
requires all customers who exceed 50 kW per month to sign a formal contract.
However, TVA management, in response to previous reports, indicated the
threshold of 50 kW for requiring customer contracts was too low. TVA
management will recommend to the TVA Board that a new and higher threshold
be established as part of the rate change process with the distributors.10 In
further discussions with TVA personnel, the proposed threshold for requiring a
contract is 1 MW. We found six LCUB customer accounts with metered demand
in excess of 1 MW without a contract. Each customer contract includes a
contract demand that is used in placing the customer in the correct classification.
Contract demand is also used in calculating the customer’s billed demand and
minimum bill.




8
     The cash and cash equivalents and cash ratio were computed based on information from LCUB’s annual
     report as of June 30 prior to the effective date of the rate increase.
9
     These are the rate increases requested by and approved for the distributor. These increases do not
     include any rate increases or decreases made by TVA, including fuel cost adjustments, which were
     passed through by the distributor to the customer.
10
     When the rate change is put into effect, all retail customers above the new threshold will be expected to
     have executed contracts. Target completion date will coincide with the rate change efforts that are
     currently under way with the distributors and is expected to be in place by October 2010.
Audit 2009-12594                                                                                      Page 6
Office of the Inspector General                                                           Audit Report


Allocation of Joint Costs
We noted one instance in which LCUB’s accounting practices did not conform to
the power contract with TVA. Under the power contract, the distributor is allowed
to “use property and personnel jointly for the electric system and other
operations, subject to agreement between Municipality and TVA as to
appropriate allocations.” The last joint cost study was performed in 1989 and
addressed rental costs for office space occupied by the other service
departments as follows:
          The electric department was to furnish utility, janitorial service, and
          maintain and operate the building, and that costs incurred thereby will be
          borne by the water11 and gas departments and the electric system in
          proportions to their respective equities.
According to the 1989 joint cost study, the allocation percentages applicable to
water and gas were about 6 percent and 4 percent, respectively. LCUB’s service
area has increased since 1989, and as a result, LCUB has updated the allocation
percentages to more accurately allocate costs based on percentages of
customers serviced by each department. The percentages are calculated
annually, and during our audit period the total percentage for water and sewer
was about 17 percent, and the percentage for gas was about 7 percent. Most
joint costs were allocated to the other service departments based on these
percentages. However, we noted all utilities and maintenance costs associated
with the office buildings owned by the electric department were paid by the
electric department even though other service departments occupied space in
the office buildings. In addition, according to LCUB personnel, the other service
departments do not pay rent for the space they occupy in the electric
department’s office buildings.

DISTRIBUTOR INTERNAL CONTROL ISSUES

We identified two areas where LCUB’s internal controls could be strengthened.
Specifically, we found improvements could be made with respect to (1) accuracy
of contract demand data entered in the billing system and (2) developing policies
to improve controls over charitable contributions.

Contract Demand in Billing Agency System
We noted two issues related to entering contract demand in the billing system.
We identified four accounts where the contract demand per the contract did not
agree with the contract demand entered into the billing system. Specifically, we
found (1) three accounts had a contract demand amount in the system that was
less than the contract demand per the contract, and (2) one account did not have
a contract on file but had a contract demand amount entered in the billing
system. Contract demand should be entered into the billing system at the
agreed-upon contract amount to ensure proper calculation of the customer’s bill
for both the monthly demand charge and the minimum bill amount.
11
     According to LCUB personnel, the water and sewer departments were combined and were reported as
     one department at this time.
Audit 2009-12594                                                                               Page 7
Office of the Inspector General                                                                   Audit Report


Developing Policies to Improve Controls Over Charitable Contributions
We noted there were no formal policies at LCUB over charitable contributions.
Specifically, we noted LCUB did not have written guidance for (1) the types of
organizations eligible for contributions or (2) approval levels/limits for charitable
contributions. LCUB personnel stated informal guidelines had been implemented
after our audit period for allocating contribution costs to the service departments
based on the service area benefitting from the contribution. Formalizing policies
is a prudent business practice that will help the distributor ensure expenditures
are properly controlled and are used for electric system purposes.

TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA’s oversight of this distributor. We noted
one new oversight opportunity in addition to two issues that have been reported
in previous Office of the Inspector General (OIG) distributor reports. Specifically,
we noted TVA has not:

  Required eligibility verification for customers receiving certain credits, such as
   the Small Manufacturing Credit (SMC) and the Enhanced Growth
   Credit (EGC). Currently, in order to receive these credits, the customer must
   complete an application form including the Standard Industrial Classification12
   (SIC) code applicable to their business. Only specific SIC codes qualify the
   customer to receive each type of credit, and the SIC code listed should be the
   code that represents the primary business activity at the location being billed
   rather than the SIC code applicable to the parent company’s primary
   business. By signing the application form, the customer certifies all
   information is correct, including the SIC code listed for their company.
   However, neither TVA nor the distributor verifies the customer’s SIC
   information is correct if the customer includes an SIC code for their primary
   business on the form. If the company does not know what SIC code is
   applicable to their primary business, the distributor and TVA Customer
   Service will assist the customer in determining the appropriate SIC code.
      According to TVA management, TVA’s intent was to rely on the customer’s
      certification.13 We attempted to verify the SIC code for the seven accounts
      receiving the SMC credit at June 20, 2008, and the eight accounts receiving
      the SMC and EGC credits at June 30, 2009, by reviewing the SIC code(s)
      listed for each company in a federal and a commercial database.14 We could
      not verify the SIC codes for three of these accounts using either database.

12
     The SIC code consists of a standard series of four-digit codes created by the United States government
     in 1937 for categorizing business activities. In 1997, the use of SIC codes was replaced in most (but not
     all) capacities by a six-digit code called the North American Industry Classification System.
     http://www.investopedia.com/terms/s/sic_code.asp
13
     The forms include a clause stating substantial penalties, including repayment of any amounts over-
     credited to the customer, and terminating participation from the credit program could be enforced if the
     customer intentionally provides materially false information on the application.
14
     The federal database is the Environment Protection Agency Facility Registry System (at
     www.epa.gov/enviro/html/fii/fii_query_java.html), and the commercial database is Dun and Bradstreet
     information obtained from the Customer Relations group at TVA.
Audit 2009-12594                                                                                       Page 8
Office of the Inspector General                                         Audit Report


   Performed a joint cost study in over 20 years when the TVA Accountant’s
    Reference Manual calls for one to be performed every three to four years or
    when major changes occur that affect joint operations.
   Adequately defined the process for granting the SMC to ensure proper
    documentation, including evidence of approval, is submitted and maintained.

In response to the previous reports, TVA agreed to take corrective actions on the
joint cost study and defining the process for the SMC issues. Full discussion of
these issues and TVA’s planned actions can be found in prior OIG distributor
reports on our Web site, www.oig.tva.gov.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations (S&ER),
work with LCUB to improve compliance with the contract and/or strengthen
internal controls. Specifically, LCUB should:

1. Implement procedures to assist in identifying accounts that need to be
   reclassified as commercial when service starts or changes to a nonresidential
   type (i.e., business or a separately metered structure).

    LCUB’s Response – LCUB stated they are working with their billing provider
    to identify and resolve the classification issues. Planned completion date is
    September 2011. See Appendix B for LCUB’s complete response.

    TVA Management’s Comments – TVA agreed that electric service should
    be provided in accordance with the availability provisions of the rate
    schedules. See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.

2. In accordance with the TVA Guidance to Distributors on Demand Meters
   issued in February 2010, review all customers’ usage greater than
   25,000 kWh and either install demand meters, or document the reason a
   demand meter is not needed.

    LCUB’s Response – LCUB stated demand meters have been installed at
    two of the three accounts that had usage in excess of 25,000 kWh during the
    audit period, and service to the remaining account has been disconnected.
    See Appendix B for LCUB’s complete response.

    TVA Management’s Comments – TVA agreed the distributor should review
    customer usage greater than 25,000 kWh and install demand meters if
    needed. See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the actions taken by LCUB and
    no further action is necessary.
Audit 2009-12594                                                            Page 9
Office of the Inspector General                                                         Audit Report


3. Implement a process to ensure all customers with demand greater than 1 MW
   have executed contracts with LCUB.

     LCUB’s Response – LCUB stated effective April 2011, an executed contract
     will be required for all customers whose contract demand exceeds 1 MW.
     LCUB will begin working with customers whose contract demand exceeds
     1 MW to verify all contracts are properly executed from this point forward. See
     Appendix B for LCUB’s complete response.

     TVA Management’s Comments – TVA agreed with the recommendation.
     See Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG concurs with the planned actions.

4. Recover utilities and maintenance costs associated with office space
   occupied by the other service departments in the electric department’s
   building using an allocation methodology approved by the LCUB Board or by
   charging rent.

     LCUB’s Response – LCUB stated they have been notified their TVA Field
     Accountant will complete a Joint Cost Study within the next year. Target
     completion date is October 2011. See Appendix B for LCUB’s complete
     response.

     TVA Management’s Comments – TVA agreed there should be a proper
     allocation of costs associated with office space occupied by other service
     departments in the electric department buildings. See Appendix C for TVA’s
     complete response.

     Auditor’s Response – The OIG concurs with the planned actions.

5. Implement a process to ensure all customers with contracts have the
   appropriate contract demand entered into the billing system and the contract
   demand in the system agrees with the customer’s contract.

     LCUB’s Response – LCUB stated the four accounts have been corrected
     where the contract demand per the contract did not agree with the contract
     demand entered into the billing system. LCUB also stated a process to
     ensure demands coincide between the billing system and the customer
     contract will be drafted and implemented. Target completion date is
     June 30, 2011.15 See Appendix B for LCUB’s complete response.

     TVA Management’s Comments – TVA agreed the distributor should have
     internal controls in place that will ensure data is correctly entered into the
     system. See Appendix C for TVA’s complete response.

15
  LCUB’s response in Appendix B stated the target date was June 30, 2010. However, LCUB notified the
  OIG that the target date should have been June 30, 2011.
Audit 2009-12594                                                                            Page 10
Office of the Inspector General                                           Audit Report


    Auditor’s Response – The OIG concurs with the planned actions.

6. Develop and implement policies and procedures pertaining to disbursing
   charitable contributions (e.g., allowable organizations, maximum amount that
   can be made at a time, maximum amount an organization may receive,
   maximum amount that can be made for the year, approval required, etc.).

    LCUB’s Response – LCUB stated unwritten general guidelines currently
    exist but they will work toward a formal policy in the future. Target completion
    date is July 1, 2011. See Appendix B for LCUB’s complete response.

    TVA Management’s Comments – TVA agreed the distributor should develop
    and implement such policies and procedures. See Appendix C for TVA’s
    complete response.

    Auditor’s Response – The OIG concurs with the planned actions.

The Group President, S&ER, should:

7. Develop and provide guidance on verifying a customer’s SIC and/or the
   North American Industry Classification System code to ensure only
   companies that meet the requirements receive the SMC and the EGC.

    TVA Management’s Comments – TVA agreed and intends to send out
    guidance to all distributors on new policies on SIC codes that will go into
    effect as part of the rate change in April 2011. Target completion date for this
    action is April 2011. See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.




Audit 2009-12594                                                             Page 11
                                                                       APPENDIX A
                                                                        Page 1 of 1

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and LCUB including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained LCUB electronic billing information from CSA for the audit period.
    The information was not complete because CSA does not maintain historical
    rate information for inactive customers. We used the information available to
    generate reports of exceptions related to classification and metering and
    conducted further review of documentation or discussed with management.
   Documented and tested the procedures and controls in place to ensure power
    usage (kWh) and demand (kW) reported to TVA on the Schedule 1, for
    purposes of billing the distributor, is complete and accurate.
   Determined through inquiry and review of documentation whether LCUB had
    any nonelectric, system-related business interests supported by electric
    system funds.
   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
   Used nonstatistical sampling methods as needed to perform the tests above.

The scope of the review was for the period July 2007 through June 2009.
Fieldwork was conducted February 2010 through June 2010. This performance
audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDIX B
 Page 2 of 2
APPENDIX C
 Page 2 of 3
APPENDIX C
 Page 3 of 3
